   THE PRIOR PERIOD ADJUSTMENT TO REMOVE NATIONAL
    DEFENSE PROPERTY, PLANT, AND EQUIPMENT FROM
        THE ARMY GENERAL FUND BALANCE SHEET

Report No. D-2000-165                          July 21, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies
  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at: www.dodig.osd.mil.


  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-2885


  Defense Hotline
  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ACSIM                Assistant Chief of Staff of the Army for Installation Management
DFAS                 Defense Finance and Accounting Service
LOGSA                Logistics Support Activity
OMB                  Office of Management and Budget
PP&E                 Property, Plant, and Equipment
RSSI                 Required Supplementary Stewardship Information
SFFAC                Statement of Federal Financial Accounting Concepts
SFFAS                Statement of Federal Financial Accounting Standards
                          Office of the Inspector General, DoD
Report No. D2000-165                                                         July 21, 2000
   Project No. D2000FH-0080.001
    (formerly Project No. 0FH-2109.01)

         The Prior Period Adjustment to Remove National Defense
                Property, Plant, and Equipment From the
                    Army General Fund Balance Sheet

                                   Executive Summary

Introduction. This audit was performed in response to the Chief Financial Officers Act
of 1990, as amended by the Federal Financial Management Act of 1994. The audit report
addresses the FY 1998 requirement to remove all dollar amounts representing the new
categories of stewardship property, plant, and equipment from the balance sheet by means
of a prior period adjustment. For FY 1998, the Army General Fund had a prior period
adjustment of about $144.5 billion and reported all of it as removal of National Defense
property, plant, and equipment from the balance sheet. This report is one of two reports
on National Defense property, plant, and equipment in DoD. The other report addresses
the DoD-wide prior period adjustment for removal of National Defense property, plant,
and equipment.

Objectives. The overall audit objectives were to determine whether the Military
Departments were consistently identifying National Defense property, plant, and
equipment as defined in the Statement of Federal Financial Accounting Standards No. 11,
“Amendments to Accounting for Property, Plant, and Equipment: Definitional Changes,”
October 1998, and whether the amount of the prior period adjustment that removed
National Defense property, plant, and equipment from the balance sheet was correct.
Since the prior period adjustments were one-time events, no management control
program applies to them. Therefore, a review of management controls for this audit was
not required. The report covers only the original prior period adjustment that removed
military equipment from the balance sheet of the Army General Fund.

Results. The Army General Fund financial statements incorrectly stated that the entire
$144.5 billion prior period adjustment was made to remove National Defense property,
plant, and equipment from the balance sheet. As a result, the statements incorrectly
implied that the Army General Fund had $144.5 billion in National Defense property,
plant, and equipment on the balance sheet as of September 30, 1997 (the end of the prior
accounting period). The statements also did not disclose the fact that prior period
adjustments were made for other purposes, including major adjustments to general
property, plant, and equipment and the accrual of an environmental liability. If the dollar
values of National Defense property, plant, and equipment had been reported for FY 1998
and FY 1999, they would have been incorrect or inconsistent with the $144.5 billion
adjusting entry. In addition, future statements showing the dollar value of National
Defense property, plant, and equipment will not be consistent with the FY 1998
statements. For details of the audit results, see the Finding section of the report.

Summary of Recommendations. We recommend that the Defense Finance and
Accounting Service Indianapolis Center, Indianapolis, Indiana, implement the existing
guidance requiring full explanation of all prior period adjustments in the notes to the
financial statements. We also recommend that the Defense Finance and Accounting
Service Indianapolis Center correct the erroneous statements about the prior period
adjustment in future financial statements of the Army General Fund and present, with any
appropriate disclaimers, the dollar amounts for National Defense property, plant, and
equipment.

Management Comments. The Defense Finance and Accounting Service concurred with
the recommendation to implement existing guidance requiring full explanation of all prior
period adjustments. However, the Defense Finance and Accounting Service did not
concur with disclosing the erroneous statement about the prior period adjustment and the
correct valuations of National Defense property, plant, and equipment, in future financial
statements. The Defense Finance and Accounting Service considered the additional
disclosures inappropriate and unnecessary. See Finding section of the report for a
discussion on the management comments and the Management Comments section for the
complete text.

Audit Response. Management comments are partially responsive. The Defense Finance
and Accounting Service does not address the effects of representing the entire adjustment
as National Defense property, plant, and equipment. The effects, as outlined in the
finding, are the reasons we consider it both necessary and appropriate to disclose the
erroneous statement about the prior period adjustment, and the correct valuations of
National Defense property, plant, and equipment, in future financial statements. We
request that the Director, Defense Finance and Accounting Service, provide comments on
the final report by September 19, 2000.




                                            ii
Table of Contents

Executive Summary                                                              i

Introduction
     Background                                                                1
     Objectives                                                                3

Finding
     The Prior Period Adjustment for Army National Defense Property, Plant,
          and Equipment                                                        4

Appendixes
     A. Audit Process
          Scope                                                               11
          Methodology                                                         12
     B. Summary of Prior Coverage                                             13
     C. Categories and Reporting Requirements for Stewardship Property,
          Plant, and Equipment                                                15
     D. Report Distribution                                                   17

Management Comments
     Defense Finance and Accounting Service                                   19
Background
    The Chief Financial Officers Act of 1990, as amended by the Federal Financial
    Management Act of 1994, requires financial statement audits by the Inspectors
    General and prescribes the responsibilities of management and the auditors for the
    financial statements, internal controls, and compliance with laws and regulations.
    This audit report addresses the prior period adjustment to the net position of the
    Army General Fund. The Army reported that the entire adjustment of
    $144.5 billion was to remove National Defense property, plant, and equipment
    (PP&E) from the Army General Fund balance sheet, as part of the reporting of
    Required Supplementary Stewardship Information (RSSI). The Defense Finance
    and Accounting Service (DFAS) Indianapolis Center, Indianapolis, Indiana,
    prepares the Army General Fund financial statements. For the FY 1998 and
    FY 1999 reporting cycles, we concurred with the Army Audit Agency’s
    disclaimer of opinion on the Army General Fund financial statements.

    Property, Plant, and Equipment Reporting Requirements. Statement of
    Federal Financial Accounting Standards (SFFAS) No. 6, “Accounting for
    Property, Plant, and Equipment,” November 1995, is the first SFFAS to address
    accounting and reporting requirements for PP&E. It established two categories of
    Federal PP&E: general PP&E and stewardship PP&E.

            General PP&E. SFFAS No. 6 defines general PP&E as any property,
    plant, and equipment used in providing goods or services. It also prescribes
    accounting and reporting requirements for general PP&E. General PP&E is
    recorded at cost on the balance sheet and, except for land, the cost is depreciated
    over the estimated useful life of the assets.

             Stewardship PP&E. SFFAS No. 6 defines three categories of
    stewardship PP&E; National Defense PP&E (formerly Federal mission PP&E) is
    one of the three categories. In most cases, the dollar value of stewardship PP&E
    is not included in the balance sheet. See Appendix C for definitions of the three
    categories.

           SFFAS No. 8, “Supplementary Stewardship Reporting,” June 1996, added
           two broad areas of stewardship reporting to stewardship PP&E:
           stewardship investments and stewardship responsibilities. SFFAS No. 8
           also established reporting requirements for all three stewardship
           categories. All stewardship reporting is in the RSSI section of the
           financial statements. Both SFFAS No. 6 and SFFAS No. 8 became
           effective for fiscal periods beginning after September 30, 1997, making
           FY 1998 the implementation year.

           SFFAS No. 11, “Amendments to Accounting for Property, Plant, and
           Equipment: Definitional Changes,” October 1998, and Statement of
           Recommended Accounting Standards No. 16, “Amendments to
           Accounting for Property, Plant, and Equipment, Measurement and
           Reporting for Multi-Use Heritage Assets,” July 1999, will both affect
           PP&E reporting. However, neither was in effect for FY 1998.



                                          1
Prior Period Adjustments of Property, Plant, and Equipment. For each
category of stewardship PP&E, SFFAS No. 6 requires that amounts previously
recognized as assets be removed from the balance sheet. Acquisition costs of the
stewardship PP&E, minus the associated accumulated depreciation, must be
subtracted from the amounts that represented assets in the PP&E section of the
balance sheet as of September 30, 1997. The net amounts removed were to be
offset with a reduction to the net position of the entity, reported as a prior period
adjustment. The amount of the prior period adjustment associated with removal
of the stewardship PP&E was to be disclosed in a footnote.

Because general PP&E would continue to be reported on the balance sheet, no
prior period adjustment to remove it was required. However, SFFAS No. 6
requires that both the cost and accumulated depreciation to date of any
unrecognized general PP&E be recorded in the implementation year, with the net
amount recognized as a prior period adjustment in the statement of changes in net
position. Such adjustments would be additions to the balance sheet rather than
deletions from it.
DoD Reporting of National Defense PP&E for FY 1998. DoD, including the
Army General Fund, reported quantities of National Defense PP&E for FY 1998
when it should have reported the dollar value as prescribed by SFFAS No. 8. We
discussed the problem in Inspector General, DoD, Audit Report No. 99-210,
“Stewardship Reporting in the DoD Agency-Wide Financial Statements for
FY 1998,” July 9, 1999, but we acknowledged that the guidance was confusing at
that time. Although the guidance had not changed, DoD again reported quantities
rather than dollar values of National Defense PP&E for FY 1999. Inspector
General, DoD, Audit Report No. D-2000-091, “Internal Controls and Compliance
With Laws and Regulations for the DoD Agency-Wide Financial Statements for
FY 1999,” February 25, 2000, addresses the matter.

RSSI Audit Requirement. The Office of Management and Budget (OMB)
Bulletin No. 98-08, “Audit Requirements for Federal Financial Statements,”
establishes the minimum requirements for audits of Federal financial statements.
For FY 1998, OMB removed the requirement to audit RSSI for the purpose of
rendering an opinion on it. Instead, auditors were to apply the less extensive
procedures appropriate for reviewing required supplementary information. As a
result of the OMB action, we were not required to render an opinion on RSSI for
FY 1998 or FY 1999.




                                      2
Objectives
     Our overall audit objectives were to determine whether the Military Departments
     were consistently identifying National Defense PP&E as defined in SFFAS
     No. 11, “Amendments to Accounting for Property, Plant, and Equipment:
     Definitional Changes,” October 1998, and to determine whether the amount of the
     prior period adjustment removing National Defense PP&E from the balance sheet
     was correct. Because the prior period adjustments were one-time events, no
     management control program applies to them. Therefore, a review of
     management controls for this audit was not required. This report covers only the
     correctness of the prior period adjustment to the Army General Fund financial
     statements and the effect it had on the values shown for National Defense PP&E
     for FY 1999 and beyond. Appendix A discusses the scope and methodology, and
     prior audit coverage is in Appendix B.




                                        3
           The Prior Period Adjustment for Army
           National Defense Property, Plant, and
           Equipment
           The Army General Fund financial statements incorrectly stated that the
           entire $144.5 billion prior period adjustment was made to remove National
           Defense property plant and equipment (PP&E) from the balance sheet.
           The financial statements were incorrect because DFAS Indianapolis
           Center based $29.9 billion, or 21 percent, of the $144.5 billion on
           adjusting journal entries that were unrelated to National Defense PP&E.
           The remaining $114.6 billion was based on journal entry adjustments
           annotated as removals of National Defense PP&E but actually included
           corrections to general PP&E. As a result, the statements incorrectly
           reported that the Army General Fund had $144.5 billion in National
           Defense PP&E on the balance sheet as of September 30, 1997 (the end of
           the prior accounting period), and did not disclose the fact that adjustments
           were made for other purposes. In addition, FY 1999 and future statements
           showing the dollar value of National Defense PP&E will not be consistent
           with the FY 1998 statements.


Breakdown of the Prior Period Adjustment
    The DFAS Indianapolis Center prepares accounting entries and financial
    statements for the Army General Fund. According to the notes to the Army
    General Fund financial statements, the entire $144.5 billion prior period
    adjustment was to remove National Defense PP&E from the balance sheet. The
    $144.5 billion was actually the balance of the prior period adjustment account
    after posting a number of accounting journal entries. Of the $144.5 billion posted,
    $114.6 billion was based on journal entries annotated as removals of National
    Defense PP&E from the balance sheet. The other entries, totaling $29.9 billion,
    were for purposes other than to remove National Defense PP&E. The journal
    entries were subdivided into seven groups, as shown in the following table.




                                         4
               Breakdown of the Prior Period Adjustment Journal Entries
                                                                                 Prior
                                                                                Period
                                                                              Adjustment
               Purpose of Entry as Labeled                                     (billions)

Removal of personal property National Defense PP&E                               $ 2.5
Removal of real property National Defense PP&E                                     19.7
Removal of war reserves National Defense PP&E                                      32.4
                                                                               _______
    Subtotal - Entries labeled for removal of National Defense PP&E             $114.6

Army Audit Agency adjustments to general PP&E                                    $ 7.9
Accrual of environmental liability                                                25.7
Other supported adjustments                                                        (6.8)1
Unsupported adjustments                                                             3.12
                                                                                ______
    Subtotal - Adjustments for other purposes or unsupported                    $ 29.9

       Total                                                                    $144.5
1
 Negative amounts represent additions to the net position of the Army General Fund.
2
 The total unsupported general ledger adjustments for FY 1998 were $672.9 billion. See
Inspector General, DoD, Report No. 99-153, “Compilation of the FY 1998 Army General
Fund Financial Statements at the Defense Finance and Accounting Service Indianapolis
Center,” May 12, 1999, for more detail.


Adjusting Entries to Remove Stewardship PP&E
         Except for war reserves, the adjusting journal entries that removed National
         Defense PP&E ($114.6 billion) were not based on any estimated or actual value of
         National Defense PP&E. Instead, the adjustments merely brought the balances of
         applicable general ledger accounts into agreement with determined values for
         general PP&E remaining on the balance sheet. Because the general PP&E
         determined asset values correctly omitted stewardship PP&E, such adjustments
         would cover both the removal of stewardship PP&E and any corrections to
         general PP&E. The result would be a correct total adjustment and accurate
         amounts on the balance sheet.

         National Defense PP&E Personal Property, Other Than War Reserves. For
         the FY 1998 financial statements, the Army Logistics Support Activity (LOGSA)
         conducted a major data call to all Army units to report all equipment of any kind.
         The principal purpose of the data call was to identify general PP&E. LOGSA
         used the data call to provide financial statement data for general PP&E that
         included acquisition cost and accumulated depreciation from the date of
         acquisition through September 30, 1998. For National Defense PP&E, the
         amount to be removed from the balance sheet was the recorded acquisition cost as
         of September 30, 1997.



                                             5
Using entries with adjustments totaling about $62.5 billion, DFAS Indianapolis
Center adjusted the applicable general ledger general PP&E account balances to
agree with the LOGSA results, including depreciation. The notations on the
journal entries stated that the $62.5 billion adjustment was made to remove
National Defense PP&E personal property from the balance sheet, although no
value associated with National Defense PP&E was used to calculate the
adjustments.

In contrast with its reliance on LOGSA dollar values for general PP&E, DFAS
Indianapolis Center did not use LOGSA-supplied dollar values for National
Defense PP&E. LOGSA supplied both quantities and dollar values for National
Defense PP&E personal property, although only quantities were reported. The
DFAS Indianapolis Center used the LOGSA quantities of National Defense PP&E
in the RSSI, but did not use the dollar values that LOGSA associated with the
same assets. The LOGSA dollar value corresponding with the quantities that it
provided was $107 billion, much greater than the $62.5 billion of National
Defense PP&E personal property removed from the balance sheet. If DFAS had
used the dollar values from LOGSA for both general and National Defense PP&E,
one adjusting entry of $107 billion would have been required to remove the
National Defense PP&E, and another entry of $44.5 billion would be necessary to
revalue the general PP&E.

Although we did not audit the LOGSA FY 1998 values and do not attest to their
accuracy, the $62.5 billion in entries included substantial net additions to general
PP&E. SFFAS No. 6 anticipated an adjustment to add general PP&E not
previously recognized during the implementation year (see the Background
section in this report), and the Army sent out a data call mainly to identify such
general PP&E. Even with the uncertainty of the values and the fact that LOGSA
National Defense PP&E values were for FY 1998 instead of FY 1997, the
adjustment included a substantial correction to general PP&E. Therefore, we find
no basis for the statement that it was all for the removal of National Defense
PP&E.

The journal entry notations, and especially the financial statements, should have
disclosed that the entries were a combination of removing National Defense
PP&E and an adjustment to general PP&E. If DFAS Indianapolis Center did not
know how much applied to each, the uncertainty should have been disclosed in
the footnote.

National Defense PP&E Real Property. As LOGSA did for personal property,
the Assistant Chief of Staff of the Army for Installation Management (ACSIM)
provided dollar values for general PP&E real property and quantities for National
Defense PP&E real property (ammunition bunkers and missile silos in active use).
Unlike LOGSA, ACSIM did not provide dollar values for National Defense
PP&E real property for the Army General Fund financial statements. The DFAS
Indianapolis Center made accounting entries based on the ACSIM general PP&E
dollar values in the same manner as for personal property, making existing
account balances agree with the ACSIM general PP&E real property values. The
entries resulted in a total adjustment of about $19.7 billion. The entries were
annotated to indicate that the entire adjustment was made to remove National
Defense PP&E real property from the balance sheet. ACSIM could not
reconstruct National Defense PP&E real estate as of September 30, 1997.
Nevertheless, as of September 30, 1999, the value was $314 million, much less


                                     6
than $19.7 billion. The annotations and the statements should have disclosed that
the adjustment was a combination of removing National Defense PP&E, and
revaluing general PP&E, and FY 1999 and future statements need to explain the
large reduction in National Defense PP&E real estate.

National Defense PP&E War Reserves. Unlike the other two sets of
adjustments, the National Defense PP&E war reserves entries used general ledger
values associated with National Defense PP&E. They used the correct method,
except that the values used were as of September 30, 1998, instead of
September 30, 1997. Therefore, part of the $32.4 billion represented current
period activity rather than a prior period adjustment. However, the problem in
methodology was relatively minor compared with the problems with adjustments
for personal property and real property. A significant problem with one of the
figures used for the war reserve adjustment is described at the end of this section.

For most categories of war reserves, the applicable general ledger accounts were
zeroed out. Regardless of the correctness of those prior account balances, zeroing
out the accounts was the equivalent of removing amounts previously recognized
as assets.

SFFAS No. 11 states that ammunition and munitions should remain on the
balance sheet as operating materials and supplies rather than being treated as
National Defense PP&E. For conventional ammunition, the applicable general
ledger accounts represented only ammunition and munitions, and DFAS
Indianapolis Center correctly made no prior period adjustments to the accounts.

For missiles, the required adjustment was more complex. SFFAS No. 11 defines
missiles as unmanned, expendable, self-propelled flying vehicles with some form
of guidance system that allows them to be steered toward, rather than aimed at,
the target, and states that missiles are National Defense PP&E. However, the
Army has recorded the dollar values both of missiles that fit the SFFAS National
Defense PP&E description, and of missiles that were similar to ammunition and
munitions, in a single set of accounts. Therefore, the Army had to determine an
amount corresponding to the missiles that fit the SFFAS No. 11 description to
remove them from the balance sheet. LOGSA provided such a value for the self-
guided missiles, and the DFAS Indianapolis Center removed only that amount
from the applicable account balances. However, working with the General
Accounting Office, we found that the value that LOGSA provided was
significantly overstated.

According to the General Accounting Office, in the course of providing a value
for missiles considered to be National Defense PP&E for FY 1999, LOGSA
realized that its FY 1998 figure of $13.255 billion included wholesale missiles
twice. Therefore, the total of $32.4 billion in adjustments to remove National
Defense PP&E war reserves from the balance sheet was overstated by at least
$4.9 billion. LOGSA corrected the error in the FY 1999 financial statements.

Heritage Assets and Stewardship Land. No accounting entries were
specifically made to remove Army General Fund heritage assets or stewardship
land from the balance sheet. DFAS Indianapolis Center personnel stated that in
previous years, personal property heritage assets were added for financial
statement purposes, but were not added for FYs 1998 and 1999. They assumed
that real property heritage assets and stewardship land were omitted from the


                                      7
     general PP&E amounts and were therefore removed from the balance sheet by the
     adjusting journal entries.

     The DFAS Indianapolis Center reported heritage assets and stewardship land for
     the Army General Fund. However, the amounts were not material to the Army
     General Fund financial statements. Because the recently determined values for
     general PP&E properly omitted heritage assets and stewardship land, the required
     removals were automatically included in the entries to make real property and
     personal property general ledger balances agree with the new general PP&E
     values. Based on the prior financial statements and on data from ACSIM, we
     estimated that the total adjustments to remove heritage assets and stewardship
     land were $0.1 billion or less. Because of the low dollar impact, the absence of
     separate disclosure of the amounts as required by SFFAS No. 6 was not material
     to the financial statements. Accordingly, we will not discuss heritage assets or
     stewardship land further in this report.



Effects of Representing the Entire Adjustment as National
  Defense PP&E
     The lack of specificity in the note explaining the prior period adjustment was not
     in compliance with the DoD guidance for financial statement preparation for
     Fys 1998 and 1999. According to DoD Regulation 7000.14-R, volume 6B, “Form
     and Content of Department of Defense Audited Financial Statements,” December
     1998 (the DoD Form and Content), entities were to disclose the nature and
     amount of significant prior period adjustments. They were to identify specifically
     any amounts greater then $100 million. The DoD Form and Content in effect for
     FY 1999 financial statement reporting repeated the foregoing requirement and
     added another specific requirement to disclose the offsetting charge for any
     cleanup cost (or environmental) liability. Of the amount not specifically
     disclosed, $25.7 billion was for accrual of an environmental liability.

     The effects of representing the entire adjustment as National Defense PP&E go
     beyond the failure to disclose the portions that removed stewardship PP&E as
     required by SFFAS No. 6 and the DoD Form and Content. Financial statement
     readers could be misled into determining that the Army General Fund had
     National Defense PP&E of $144.5 billion as of September 30, 1997, that needed
     to be removed from the balance sheet. They might also conclude that the National
     Defense PP&E quantities reported in the financial statements would have a value
     equal to the $144.5 billion, adjusted for any current year additions and deletions.
     The implications leading to the erroneous conclusions do not comply with
     applicable concepts of Federal financial accounting.




                                          8
    Statement of Federal Financial Accounting Concepts (SFFAC) No. 1, “Objectives of
    Federal Financial Reporting,” September 2, 1993, states that information in financial
    reporting should represent what it purports to represent. SFFAC No. 2, “Entity and
    Display,” April 20, 1995, states that accompanying footnotes to financial statements are
    an integral part of the statements and are needed to make the statements more informative
    and not misleading. The footnote was misleading because the $144.5 billion prior period
    adjustment represented more than the removal of National Defense PP&E from the
    balance sheet.

    SFFAC No. 1 also states that no material information should be omitted. In this case, the
    Army General Fund FY 1998 financial statements omitted the fact that prior period
    adjustments of $29.9 billion were made for reasons unrelated to National Defense PP&E.
    As specific examples, the statements did not disclose that $25.7 billion was accrued as an
    environmental liability, or that general PP&E personal property was adjusted upward by
    as much as $44.5 billion.

    Finally, SFFAC No. 1 requires financial reports to be consistent over time. For FY 1999,
    as for FY 1998, the Army should have reported National Defense PP&E by dollar value,
    but again has reported it by quantity. The requirement is to show a beginning dollar
    value, additions, deletions, and a net ending dollar value. If the Army General Fund had
    reported National Defense PP&E correctly for FY 1999, an explanation would have been
    needed as to why the beginning amount reported was not $144.5 billion. Although a
    decision on where National Defense PP&E will be reported is still pending, we believe
    that the Federal Accounting Standards Advisory Board will continue with the requirement
    to show the National Defense PP&E dollar values.


Recommendations, Management Comments, and Audit Response
     We recommend that the Director, Defense Finance and Accounting Service
     Indianapolis Center:


            1. Implement the DoD Regulation 7000.14-R, volume 6B, “Form and
     Content of the Department of Defense Audited Financial Statements” guidance
     that requires all prior period adjustments be fully explained in the footnotes.

     Management Comments. DFAS concurred and stated that it had made every effort to
     fully disclose material conditions but had been limited by the quality and timeliness of
     information from supporting accounting and logistics offices. DFAS stated that it would
     work with the supporting offices to improve the area during FY 2000. DFAS expects
     completion by January 31, 2001.

            2. In future Army General Fund statements:

                   a. Disclose the erroneous valuation of National Defense property,
     plant, and equipment removed from the financial statements.
                  b. State the value of the National Defense property, plant, and
     equipment reported for FY 1998, with any necessary disclaimers on the accuracy of
     the amount.
                   c. Restate what the FY 1998 adjustment actually represented.

                                                9
Management Comments. DFAS did not concur and stated that it is not appropriate or
necessary to address the FY 1998 prior period adjustment narrative misstatement. DFAS
also stated that it was unnecessary to address the FY 1998 value of the National Defense
property, plant, and equipment, and that it was also unnecessary to restate the prior
period adjustment in the FY 2000 and future financial statements.

Audit Response. DFAS comments are not responsive in that they do not address the
effects of representing the entire adjustment as National Defense PP&E. Further, the
DFAS position would be inconsistent with the Statements of Federal Financial
Accounting Concepts 1 and 2. Without later correction, financial statement users will
continue to overvalue Army General Fund PP&E at the $144.5 billion reported as of
September 30, 1998. In addition, the users of the statements would not be aware that
some of the $144.5 billion was to revalue General PP&E, establish the accrual
environmental liability needed for the Army, and make other adjustments that were not
associated with National Defense PP&E. Furthermore, future financial statements that
report a dollar value of National Defense PP&E would not be supported by a starting
value of $144.5 billion reported as of September 30, 1998, without additional
explanation. We request that DFAS reconsider its position on the necessity of
addressing the FY 1998 prior period adjustment narrative misstatement in future
financial statement footnotes or narratives. It should be noted that we do not want the
financial statements for FY 1998 or FY 1999 restated.




                                          10
Appendix A. Audit Process


Scope
   Work Performed. We reviewed the journal entries underlying the Army General
   Fund prior period adjustment and supporting documentation. We focused on the
   entries that were labeled as removing National Defense PP&E from the balance
   sheet, but we also reviewed the other entries enough to verify that they were for
   other purposes. We also reviewed the FY 1998 Army General Fund financial
   statements and the submissions from LOGSA and ACSIM on the values of general
   and National Defense PP&E as of September 30, 1998. We were not required to
   and did not render an opinion on the RSSI statements.

   We interviewed personnel and reviewed records at the DFAS Indianapolis Center
   and LOGSA. We checked the basic methodology of the journal entries and the use
   of LOGSA and ACSIM data.

   Limitations to Audit Scope. We were unable to determine exactly what the
   amounts of the adjustments should have been. The correct amounts would have
   been the amounts on the Army General Fund balance sheet as of
   September 30, 1997, that represented the various types of stewardship PP&E.
   LOGSA and ACSIM did not calculate the amounts because RSSI was not a
   requirement in FY 1997. The Army General Fund FY 1997 balance sheet had a
   value for military equipment, but the value did not correspond to National Defense
   PP&E for FY 1998.

   We did not audit the LOGSA and ACSIM figures as of September 30, 1998,
   because they gave only an approximate idea of what the September 30, 1997,
   amounts would have been, and because the Army Audit Agency had already tried
   unsuccessfully to audit them. Army Audit Agency Report No. AA 99-158, “Army’s
   Principal Financial Statements for Fiscal Year 1998 - Summary Audit Report,”
   February 18, 1999, states that the reporting process for RSSI did not provide
   reasonable assurance that the information was accurate and complete. We did not
   audit the figures previously because, in general, the FY 1998 DoD financial
   statements were issued too late for us to audit them in a timely fashion.
   Additionally, no audit opinion on RSSI was required for FY 1998.

   Because the prior period adjustments were one-time events, no management control
   program applies to them. Therefore, a review of management controls for this audit
   was not required.




                                        11
    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures:

           •    FY 2001 DoD Corporate Level Goal 2: Prepare now for an
                uncertain future by pursuing a focused modernization effort that
                maintains U.S. qualitative superiority in key warfighting capabilities.
                Transform the force by exploiting the Revolution in Military Affairs,
                and reengineer the Department to achieve a 21st century
                infrastructure. (01-DoD-2)
           •    FY 2001 Subordinate Performance Goal 2.5: Improve DoD
                financial and information management. (01-DoD-2.5)
           •    FY 2001 Performance Measure 2.5.2: Achieve unqualified
                opinions on financial statements. (01-DoD-2.5.2)

    General Accounting Office High-Risk Areas. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high-risk area.



Methodology
    Use of Computer-Processed Data. We are reviewing LOGSA and ACSIM
    systems tracking stewardship PP&E for FY 1999. For this report, we used only
    system outputs that LOGSA and ACSIM provided to the DFAS Indianapolis
    Center. The report concerns what the DFAS Indianapolis Center did with the
    amounts, not the accuracy of the amounts. Therefore, although we did not
    establish the reliability of the LOGSA and ACSIM databases, the results reported
    in this report are not materially affected.
    Audit Type, Dates, and Standards. We conducted this financial-related audit
    from June 1999 through February 2000 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.




                                        12
Appendix B. Summary of Prior Coverage


General Accounting Office
    U.S. General Accounting Office Report No. AIMD-99-130 (OSD Case No. 1801),
    “1998 Financial Report of the United States Government,” March 31, 1999.



Department of Defense
       Inspector General, DoD, Report No. D-2000-091, “Internal Controls and
       Compliance With Laws and Regulations for the DoD Agency-Wide Financial
       Statements for FY 1999,” February 25, 2000.

       Inspector General, DoD, Report No. D-2000-087, “Inspector General, DoD,
       Oversight of the Army Audit Agency Audit of the Army’s General Fund
       Principal Financial Statements for Fiscal Year 1999,” February 14, 2000.

       Inspector General, DoD, Report No. 99-210, “Stewardship Reporting in the DoD
       Agency-Wide Financial Statements for FY 1998,” July 9, 1999.

       Inspector General, DoD, Report No. 99-153, “Compilation of the FY 1998 Army
       General Fund Financial Statements at the Defense Finance and Accounting
       Service Indianapolis Center,” May 12, 1999.

       Inspector General, DoD, Report No. 99-097, “Internal Controls and Compliance
       With Laws and Regulations for the DoD Agency-Wide Financial Statements for
       FY 1998,” March 1, 1999.

       Inspector General, DoD, Report No. 99-091, “Inspector General, DoD, Oversight
       of the Army Audit Agency Audit of the FY 1998 Army General Fund Financial
       Statements,” March 1, 1999.


Army
    Army Audit Agency Report No. AA 00-168, “Army’s General Fund Principal
    Financial Statements for Fiscal Year 1999 - Summary Audit Report,”
    February 9, 2000.

    Army Audit Agency Report No. AA 99-358, “Army’s Principal Financial
    Statements - Statement of Changes in Net Position,” August 13, 1999.

    Army Audit Agency Report No. AA 99-191, “Army’s Principal Financial
    Statements for Fiscal Year 1998 - Supplemental Stewardship Reporting of
    National Defense Equipment,” March 24, 1999.


                                        13
Army Audit Agency Report No. AA 99-158, “Army’s Principal Financial
Statements for Fiscal Year 1998 - Summary Audit Report,” February 18, 1999.

Army Audit Agency Report No. AA 99-112, “Army’s Principal Financial
Statements for Fiscal Years 1998 and 1997 - Financial Reporting of Equipment -
Follow-up Issues,” January 15, 1999.

Army Audit Agency Report No. AA 99-108, “Army’s Principal Financial
Statements for Fiscal Years 1998 and 1997 - Financial Reporting of Equipment -
Reportable Item Control Codes,” December 31, 1998.

Army Audit Agency Report No. AA 98-172, “Army’s Principal Financial
Statements for Fiscal Years 1997 and 1996 - Accountability for Army Mission
Equipment,” May 4, 1998.




                                   14
Appendix C. Categories and Reporting
            Requirements for Stewardship
            Property, Plant, and Equipment
   The three categories of stewardship PP&E and the reporting requirements for
   them are as follows.

   National Defense PP&E (Originally Federal Mission PP&E). The National
   Defense PP&E category consists of weapon systems and support PP&E owned by
   DoD or its component entities for use in the performance of military missions and
   vessels held in a preservation status by the Maritime Administration’s National
   Defense Reserve Fleet. National Defense PP&E is typically held for use in the
   event of war or other emergency. Additional characteristics of National Defense
   PP&E are an indeterminate or unpredictable useful life and a high risk of being
   destroyed during use or becoming obsolete prematurely. For those reasons, the
   usual depreciation of roughly equal portions of the cost over the estimated useful
   life, starting at the time of acquisition, does not reflect the way the assets are
   actually used. Starting in FY 1998, costs of acquisition and improvement of
   National Defense PP&E were to be recognized as expenses in the year incurred.

   SFFAS No. 8 requires the reporting of National Defense PP&E as RSSI in dollars
   at acquisition cost. The requirement was in effect at the time of the audit.
   Therefore, the cost of National Defense PP&E removed from the balance sheet,
   adjusted for the intervening years’ activity, should be reconcilable with cost
   reported as RSSI.

   Heritage Assets. Heritage assets are PP&E unique for historical or natural
   significance; cultural, educational, or artistic importance; or significant
   architectural characteristics. Heritage assets are divided into collection-type
   heritage assets, such as items in a museum, and noncollection-type assets, such as
   historic buildings. Except as noted in this section, the expectation is that heritage
   assets will be preserved rather than used and will be kept for an indefinite period.
   Additionally, there may be no acquisition cost, and it may be impossible to
   determine any reasonable value. Unlike National Defense PP&E, reporting of
   heritage assets in RSSI is in physical units, not dollars. New acquisition and
   improvement costs are to be expensed as incurred.

   Multi-use heritage assets, generally noncollection type, consist of PP&E items that
   have the properties of heritage assets and are also used in Government operations.
   Statement of Recommended Accounting Standards No. 16 (in Congress for
   review before issuance as SFFAS No. 16), “Amendments to Accounting for
   Property, Plant, and Equipment, Measurement and Reporting for Multi-Use
   Heritage Assets,” July 1999, states that the assets should remain on entity balance
   sheets, in dollars, as general PP&E. They are also to be reported on the heritage
   asset statement in physical units. New acquisition and improvement costs are to
   be capitalized and depreciated rather than expensed. Therefore, the adjustment to
   remove heritage assets from the balance sheet would not include multi-use
   heritage assets. Although the effective date for SFFAS No. 16 is FY 2000, DoD
   had already taken the prescribed approach to accounting for multi-use heritage
   assets.


                                        15
Stewardship Land. Stewardship land is land owned by the Federal Government
and not acquired for or in connection with general PP&E. Examples in SFFAS
No. 6 are forests, parks, and land used for wildlife and grazing. As with heritage
assets, reporting is in physical units such as acres, not dollars. Further
interpretations of SFFAS No. 6 extend the definition to donated land and land
allocated from the public domain, for which no acquisition cost is available, and
for which a determination of the value may be difficult. That further
interpretation can include land used operationally; in fact, a large number of active
military bases are located on former public domain land. The cost of land,
including general PP&E land, is never depreciated. Any new costs to acquire or
improve stewardship land are expensed as incurred.




                                     16
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
     Director for Accounting Policy
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Commander, Army Materiel Command
  Commander, Logistics Support Activity

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Indianapolis Center

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center




                                          17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform




                                          18
Defense Finance and Accounting Service
Comments




                   19
Defense Finance and Accounting Service Comments




                                    20
Audit Team Members

This report was prepared by the Finance and Accounting Directorate, Office of the
Assistant Inspector General for Auditing, DoD.

F. Jay Lane
David F. Vincent
John A. Richards
Tyler C. Apffel
Kandy T. Sutton
Anissa M. Nash-Brooks
Susanne B. Allen
